         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Department of Energy's Fiscal Year
2012 Consolidated Financial
Statements




OAS-FS-13-04                       November 2012
                                  Department of Energy
                                    Washington, DC 20585

                                       November 15, 2012


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Report on the Department of Energy's Fiscal Year
                         2012 Consolidated Financial Statements

Pursuant to requirements established by the Government Management Reform Act of 1994, the
Office of Inspector General (OIG) engaged the independent public accounting firm of KPMG,
LLP (KPMG) to perform the audit of the Department of Energy's (Department) Fiscal Year 2012
Consolidated Financial Statements.

KPMG audited the Department's consolidated balance sheets as of September 30, 2012 and
2011, and the related consolidated statements of net cost, changes in net position, and custodial
activity, and combined statement of budgetary resources, for the years then ended. KPMG
concluded that these consolidated financial statements are presented fairly, in all material
respects, and in conformity with U.S. generally accepted accounting principles and has issued an
unqualified opinion based on its audits and the reports of other auditors for the years ended
September 30, 2012 and 2011.

As part of this review, auditors also considered the Department's internal controls over financial
reporting and tested for compliance with certain provisions of applicable laws, regulations,
contracts and grant agreements that could have a direct and material effect on the consolidated
financial statements. The audit revealed certain deficiencies in internal control over financial
reporting related to unclassified network and information systems security that were considered
to be a significant deficiency. The following significant deficiency in the Department's system
of internal controls is not considered a material weakness:

   •   Unclassified Network and Information Systems Security: Network vulnerabilities and
       weaknesses in access and other security controls in the Department's unclassified
       computer information systems continue to exist. The Department has taken steps to
       enhance its unclassified cyber security program, including oversight of cyber security
       reform efforts, issuing guidance, and the development of a notational cyber security
       management architecture framework to support the Department's mission-related risk
       management approach.

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under applicable audit standards and requirements.
                                                  2

KPMG is responsible for the attached auditor's report and the opinions and conclusions
expressed therein. The OIG is responsible for technical and administrative oversight regarding
KPMG's performance under the terms of the contract. Our review was not intended to enable us
to express, and accordingly we do not express, an opinion on the Department's financial
statements, management's assertions about the effectiveness of its internal control over financial
reporting or the Department's compliance with laws and regulations. Our monitoring review
disclosed no instances where KPMG did not comply with applicable auditing standards.

I would like to thank each of the Department elements for their courtesy and cooperation during
the review.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Acting Under Secretary of Energy
      Office of the Under Secretary for Science
      Acting Deputy Chief Financial Officer
      Chief of Staff



                                                            Audit Report: OAS-FS-13-04



http://www.cfo.doe.gov/cf12/2012parAFR.pdf
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


The Inspector General, United States Department of Energy and
The Secretary, United States Department of Energy:

We have audited the accompanying consolidated balance sheets of the United States (U.S.) Department of
Energy (Department) as of September 30, 2012 and 2011, and the related consolidated statements of net
cost, changes in net position, and custodial activity, and combined statements of budgetary resources
(hereinafter referred to as “consolidated financial statements”) for the years then ended. The objective of
our audits was to express an opinion on the fair presentation of these consolidated financial statements. In
connection with our fiscal year 2012 audit, we also considered the Department’s internal control over
financial reporting and tested the Department’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements that could have a direct and material effect on these
consolidated financial statements.

As discussed in this report, a Power Marketing Administration of the Department, whose Department-
related financial data is included in the accompanying consolidated financial statements, was audited by
other auditors whose report has been furnished to us and was considered in forming our overall opinion on
the Department’s consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, based upon our audits and the report of
the other auditors, we concluded that the Department’s consolidated financial statements as of and for the
years ended September 30, 2012 and 2011, are presented fairly, in all material respects, in conformity with
U.S. generally accepted accounting principles.

As discussed in our Opinion on the Financial Statements, the Department changed its presentation for
reporting the combined statements of budgetary resources in fiscal year 2012.

Our opinion emphasizes that: (1) the Department has direct loans and loan guarantees issued under the
Federal Credit Reform Act of 1990 and that subsidy costs of the loans and loan guarantees include interest
rate differentials, delinquencies, defaults, fees, and other cash flow items; (2) the cost estimates supporting
the Department’s environmental cleanup and disposal liabilities are based upon assumptions regarding
funding and other future actions and decisions, many of which are beyond the Department’s control; and
(3) the Department is involved as a defendant in several matters of litigation relating to its inability to
accept commercial spent nuclear fuel by January 31, 1998, the date specified in the Nuclear Waste Policy
Act of 1982, as amended.

Our consideration of internal control over financial reporting resulted in identifying certain deficiencies
related to unclassified network and information systems security that we consider to be a significant
deficiency, as defined in the Internal Control Over Financial Reporting section of this report.

We did not identify any deficiencies in internal control over financial reporting that we consider to be
material weaknesses as defined in the Internal Control Over Financial Reporting section of this report.
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
U.S. Department of Energy
November 14, 2012
Page 2 of 6




The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards, issued by the Comptroller General of the United States, and Office of
Management and Budget (OMB) Bulletin Number (No.) 07-04, Audit Requirements for Federal Financial
Statements, as amended.

The following sections discuss our opinion on the Department’s consolidated financial statements; our
consideration of the Department’s internal control over financial reporting; our tests of the Department’s
compliance with certain provisions of applicable laws, regulations, contracts, and grant agreements; and
management’s and our responsibilities.

Opinion on the Financial Statements
We have audited the accompanying consolidated balance sheets of the United States Department of Energy
as of September 30, 2012 and 2011, and the related consolidated statements of net cost, changes in net
position, and custodial activity, and the combined statements of budgetary resources for the years then
ended.

We did not audit the financial statements of the Bonneville Power Administration as of and for the years
ended September 30, 2012 and 2011, whose Department-related financial data reflect total assets
constituting 12.7 percent and 12.2 percent and total net costs constituting (0.5) percent and (0.6) percent,
respectively, of the related consolidated totals. Those financial statements were audited by other auditors
whose report has been furnished to us, and our opinion, insofar as it relates to the amounts included for the
Bonneville Power Administration, is based solely upon the report of the other auditors.

In our opinion, based on our audits and the report of the other auditors, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the United
States Department of Energy as of September 30, 2012 and 2011, and its net costs, changes in net position,
budgetary resources, and custodial activity for the years then ended, in conformity with U.S. generally
accepted accounting principles.

As discussed in Note 1.Q. to the consolidated financial statements, the Department changed its presentation
for reporting the combined statement of budgetary resources in fiscal year 2012, based on new reporting
requirements under OMB Circular No. A-136, Financial Reporting Requirements. As a result, the
Department’s combined statement of budgetary resources for fiscal year 2011 has been adjusted to conform
to the current year presentation.

As discussed in Note 7 to the consolidated financial statements, the Department has total direct loans and
loan guarantees, net, of $13 billion and $7 billion as of September 30, 2012 and 2011, respectively, which
are issued under the Federal Credit Reform Act of 1990. Subsidy costs of the direct loans and loan
guarantees are intended to estimate the long-term cost to the U.S. Government of its loan program and
include interest rate differentials, delinquencies, defaults, fees, and other cash flow items. A subsidy re-
estimate is performed annually at September 30. Any adjustment resulting from the re-estimate is
recognized as subsidy expense.

As discussed in Note 15 to the consolidated financial statements, the cost estimates supporting the
Department’s environmental cleanup and disposal liabilities of $268 billion and $251 billion as of
U.S. Department of Energy
November 14, 2012
Page 3 of 6




September 30, 2012 and 2011, respectively, are based upon assumptions regarding funding and other future
actions and decisions, many of which are beyond the Department’s control.

As discussed in Note 18 to the consolidated financial statements, the Department is involved as a defendant
in several matters of litigation relating to its inability to accept commercial spent nuclear fuel by January
31, 1998, the date specified in the Nuclear Waste Policy Act of 1982, as amended. The Department has
recorded liabilities for likely damages of $20 billion and $19 billion as of September 30, 2012 and 2011,
respectively.

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship Information
sections be presented to supplement the basic consolidated financial statements. Such information,
although not a part of the basic consolidated financial statements, is required by the Federal Accounting
Standards Advisory Board who considers it to be an essential part of financial reporting for placing the
basic consolidated financial statements in an appropriate operational, economic, or historical context. We
have applied certain limited procedures to the required supplementary information in accordance with
auditing standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic consolidated financial statements, and
other knowledge we obtained during our audits of the basic consolidated financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The September 30, 2012 consolidating information in the Consolidating Schedules
section of the Department’s 2012 Agency Financial Report is presented for purposes of additional analysis
and is not a required part of the basic consolidated financial statements. Such information is the
responsibility of management and was derived from and relates directly to the underlying accounting and
other records used to prepare the basic consolidated financial statements. The September 30, 2012
consolidating information has been subjected to the auditing procedures applied in the audit of the basic
consolidated financial statements and certain additional procedures, including comparing and reconciling
such information directly to the underlying accounting and other records used to prepare the basic
consolidated financial statements or to the basic consolidated financial statements themselves, and other
additional procedures in accordance with auditing standards generally accepted in the United States of
America. In our opinion, the September 30, 2012 consolidating information is fairly stated in all material
respects in relation to the basic consolidated financial statements as a whole. The information in the
Message from the Chief Financial Officer and Other Accompanying Information section of the
Department’s 2012 Agency Financial Report are presented for the purposes of additional analysis and are
not a required part of the basic consolidated financial statements. Such information has not been subjected
to the auditing procedures applied in the audits of the basic consolidated financial statements, and
accordingly, we do not express an opinion or provide any assurance on them.

Internal Control Over Financial Reporting
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
U.S. Department of Energy
November 14, 2012
Page 4 of 6




detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
Responsibilities section of this report and was not designed to identify all deficiencies in internal control
over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. This
report also includes our consideration of the results of the other auditors’ testing of internal control over
financial reporting that are reported on separately by those auditors. However, this report, insofar as it
relates to the results of the other auditors’ testing, is based solely on the report of the other auditors.

In our fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. However, we identified certain
deficiencies in internal control over financial reporting related to unclassified network and information
systems security, as described below and in more detail in Exhibit I that we consider to be a significant
deficiency in internal control over financial reporting. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance.

        •   Unclassified network and information systems security – We noted network vulnerabilities and
            weaknesses in access and other security controls in the Department’s unclassified computer
            information systems. The identified weaknesses and vulnerabilities increase the risk that
            malicious destruction or alteration of data or unauthorized processing could occur. The
            Department should fully implement policies and procedures to improve its network and
            information systems security.

Exhibit II presents the status of the prior year significant deficiency.

We noted certain additional matters involving internal control over financial reporting and internal control
over financial management systems that we will report to management in separate letters.

Compliance and Other Matters
The results of our tests of compliance as described in the Responsibilities section of this report, exclusive
of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04, as amended. This report also includes our consideration of
the results of the other auditors’ testing of compliance and other matters that are reported on separately by
the other auditors. However, this report, insofar as it relates to the results of the other auditors’ testing, is
based solely on the report of the other auditors.

The results of our tests of FFMIA disclosed no instances in which the Department’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

                                                  *******
U.S. Department of Energy
November 14, 2012
Page 5 of 6




Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control over financial reporting; and complying with laws,
regulations, contracts, and grant agreements applicable to the Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2012 and 2011
consolidated financial statements of the Department based on our audits and the report of the other
auditors. We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04, as
amended. Those standards and OMB Bulletin No. 07-04, as amended, require that we plan and perform the
audits to obtain reasonable assurance about whether the consolidated financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of the Department’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.

We believe that our audits and the report of the other auditors provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2012 audit, we considered the Department’s internal control
over financial reporting by obtaining an understanding of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we do not express an opinion on
the effectiveness of the Department’s internal control over financial reporting. Furthermore, we did not test
all controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2012 consolidated
financial statements are free of material misstatement, we performed tests of the Department’s compliance
with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which
could have a direct and material effect on the determination of the consolidated financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, as
amended, including the provisions referred to in Section 803(a) of FFMIA. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did not test compliance with all
laws, regulations, contracts, and grant agreements applicable to the Department. However, providing an
U.S. Department of Energy
November 14, 2012
Page 6 of 6




opinion on compliance with laws, regulations, contracts, and grant agreements was not an objective of our
audit and, accordingly, we do not express such an opinion.

                                   ______________________________

The Department’s written response to the findings identified in our audit and presented in Exhibit I was not
subjected to the auditing procedures applied in the audit of the Department’s consolidated financial
statements and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these specified parties.




November 14, 2012
Independent Auditors’ Report
Exhibit I – Significant Deficiency




                       Unclassified Network and Information Systems Security
                      (Finding numbers reported in separate management letter)


The United States Department of Energy (the Department or DOE) uses a series of interconnected
unclassified networks and information systems. Federal and Departmental directives, included in DOE
Order 205.1B, Department of Energy Cyber Security Program, require the establishment and maintenance
of security over unclassified information systems, including financial management systems. Past audits
identified significant weaknesses in selected systems and devices attached to the computer networks at
some Department sites. The Department has implemented corrective actions to address many of the
identified weaknesses at the sites whose security controls we, and the Department’s Office of Health,
Safety and Security, reviewed in prior years. However, at the time of our testing, these corrective actions
had not been completed. The frequency of network security weaknesses reported by KPMG has decreased
when compared to the prior year weaknesses, but remains slightly higher than fiscal year (FY) 2010. The
severity of these weaknesses remains consistent with prior year weaknesses. The Department recognizes
the need to enhance its unclassified cybersecurity program and has categorized unclassified cybersecurity
as a leadership challenge in its Federal Managers' Financial Integrity Act assurance statement for FY
2012. Improvements are still needed in the areas of system and application access and related access
privileges, password management, configuration and vulnerability management, restriction of network
services, and integrity of web applications.

Our FY 2012 audit disclosed information system security deficiencies similar in type and risk level to our
findings in prior years. We identified similar weaknesses at sites where we had not reviewed security
controls in the prior year. Specifically, we noted weaknesses within layered security controls for network
servers and devices, desktop systems and business applications. We identified multiple instances of easily
guessed login credentials or unrestricted access controls on network systems that could permit unauthorized
access to those systems and their data. We also found weak account management and monitoring controls
for review, approval, provisioning and termination of administrative and user accounts that may increase
the risk of malicious or unauthorized access to systems and data.

In the area of configuration and vulnerability management, we identified deficiencies in the patch
management process for timely and secure installation of critical software patches, with numerous
instances in which security patches had not been applied to correct known vulnerabilities more than three
months after the patches became available. The affected systems included workstations used by financial
application users and system administrators with privileged levels of access to financial systems and other
network systems. We also noted numerous weaknesses in web application integrity as a result of design
flaws in those applications. We identified web applications that did not properly validate the form or
content of input data against an application’s database, which could result in unauthorized access to
application functionality, sensitive data stored in the applications, and other network systems and
applications.

While many of these cybersecurity weaknesses were corrected immediately after we identified and reported
them to site management, deficiencies in the process and procedures for identifying, monitoring and
remediating such deficiencies have continued from prior years. We also identified inconsistent risk
management practices at several sites and noted that site management had not established a risk acceptance
process to fully document acceptance of risk. We further noted that multiple sites were continuing to
develop and implement site-level Implementation Plans in accordance with the Department’s Risk
Management Approach (RMA) to address these weaknesses. However, these risk management
enhancements were incomplete at the time of our testing.

The Department’s Office of Inspector General (OIG) reported on these deficiencies in its evaluation report
on The Department’s Unclassified Cyber Security Program - 2012, dated November 2012. The OIG noted
that identified weaknesses occurred, in part, because Departmental entities had not ensured that
cybersecurity requirements were fully developed and implemented. The OIG reported that programs and
sites had not always effectively monitored performance to ensure that appropriate controls were in place.
The OIG noted that the Department’s Plans of Action and Milestones were not always effectively used to
report, prioritize and track cybersecurity weaknesses through remediation. The OIG also reported
deficiencies in physical and logical access controls and configuration management at several sites where,
even when policies and procedures were established, implementation of those policies and procedures were
not aligned with the Federal requirements.

The identified vulnerabilities and control weaknesses in unclassified network and information systems
increase the possibility that malicious destruction or alteration of data or unauthorized processing could
occur. Because of our concerns, we performed supplemental procedures and identified compensating
controls that mitigate the potential effect of these security weaknesses on the integrity, confidentiality and
availability of data in the Department’s financial applications.

During FY 2012, the Department had taken steps to enhance its unclassified cybersecurity program under
the collaborative leadership of the DOE Information Management Governance Council (IMGC) and IMGC
Working Group. The Joint Cybersecurity Coordination Center (JC3) Governance Model was approved in
May 2012 to implement the requirements of DOE Order 205.1B related to continuous monitoring and risk
management. The Department also continued ongoing efforts to improve awareness of Cybersecurity
initiatives, including role-based training and workforce development, and to promote effective channels of
communication and collaboration.

Recommendation:

While progress has been made, continued efforts are needed to effectively manage the evolving nature of
cybersecurity threats, including strengthening the management review process and monitoring of field sites
to ensure the adequacy of cybersecurity program performance; fully implementing revised and ongoing risk
management processes; and expanding the use of automated tools in the resolution of the vulnerabilities
and control weaknesses described above to ensure that systems are properly configured, implemented and
updated throughout the lifetime of those systems.

Therefore, we recommend that the Under Secretary for Nuclear Security, Under Secretary of Energy, and
Under Secretary for Science, in coordination with the Department and National Nuclear Security
Administration (NNSA) Chief Information Officers, fully implement policies and procedures to meet
Federal cybersecurity standards, protect networks and information systems against unauthorized access,
and implement an adequate performance monitoring program, such as the use of periodic evaluations by
Headquarters management, to improve the effectiveness of sites’ cybersecurity program implementation.
Detailed recommendations to address the issues discussed above have been separately reported to the
cognizant management officials.
Management’s Response:

The Department of Energy’s Chief Information Officer (CIO) appreciates the opportunity to comment on
the OIG’s recognition of the Department’s continued progress in addressing weaknesses and enhancing its
unclassified cybersecurity program. The information in this report will enable the Department to take
appropriate follow-up action on specific findings, as well as to continue to work in the most effective way
to improve the Department’s cybersecurity posture.

Throughout FY 2013, the Department will continue to enhance policies and procedures that define and
implement the cybersecurity program and maintain the risk management approach.
Independent Auditors’ Report
Exhibit II – Status of Prior Year Significant Deficiency




     Fiscal Year 2011 Significant Deficiency                  Status at September 30, 2012

Unclassified Information Systems Security           Not fully implemented – Unclassified network and
                                                    information systems security issues continue to be
                                                    reported in Exhibit I as a significant deficiency.
                                                                  IG Report No. OAS-FS-13-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
